HHS/OIG, Audit -"Audit of Houston Administrative Costs Claimed for Medicaid School-Based Health Services,"(A-06-02-00037)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Houston Administrative Costs Claimed for Medicaid School-Based Health Services," (A-06-02-00037)
January, 21, 2004
Complete
Text of Report is available in PDF format (977 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to
determine whether the administrative expenditures claimed by the Houston Independent School District for school-based
health services for the period October 1, 1999 through September 31, 2000 were reasonable, allowable, and adequately
supported in accordance with applicable Federal regulations and the terms of the State Medicaid contract.  We found
that Houston's system of calculating its claim was not reliable and unallowable costs were included in the calculations.  As
a result, the claim for school-based administrative expenditures was not allowable or adequately supported in accordance
with Federal and State regulations.  The supporting cost documentation, the allocation methodologies, and the time
studies used by Houston did not support the Federal reimbursement of $2,792,575.  We recommended that Houston make
(1) a financial adjustment of $2,792,575 through the Medicaid State agency for the Federal share of costs not in compliance
with Federal and State requirements and (2) procedural improvements.